2401 E. Pershing Blvd
Cheyenne, WY 82001 PH:
800-368-9328
www.bluefcu.com

and Account issued by Blue Federal Credit Union
.
In this Agreement, the words "you," "your," "yours," "applicant," and
"Borrower" mean any person who signs the application for this Account, any joint obligor, guarantor, authorized user, or the person
whose name is embossed on the Card. The words "we," "us," "our,"
and "Credit Union" mean Blue Federal Credit Union. The word
"Card" means any one or more credit cards issued under this Account. If you sign an application for this Account or sign or use
any Card or PIN, or allow others to use the Card or PIN, you
and they will have accepted this Agreement just as if you and
they signed it, and you and they, jointly and severally, will be
bound by the following terms and conditions which will govern this Account.
You grant us a security interest in all your shares and deposits,
present and future, and all accounts with the Credit Union (except Individual Retirement Accounts) to secure your Account.
This security interest is required as a condition for us to grant
you credit under this Agreement.
You promise to pay us all amounts, plus any Interest Charges, which
arise from use of the Card or Account by you or any other person,
and to be jointly and severally liable with such a person, unless such
other person does not have actual, implied, or apparent authority for
such use, and you received no benefit from the use. You promise to
pay us either by direct payment or by automatic transfers from
shares or by payroll deduction.
a. Purchases, Cash Advances, and Balance Transfers. You
must sign the Card to use it. Once you have signed the Card, you
can use it to buy or lease goods, services, or insurance wherever
the Card is honored, up to the full amount of your Credit Line. You
may use your Account to get cash advances from us. You may also
use your Card to get a cash advance from participating financial
institutions, to initiate a balance transfer payment on another
account, and to access your line of credit at automatic teller
thin the MasterCard network or any other
ATMs that accept MasterCard branded cards.
b. Convenience Checks. If we approve, you may obtain advances
under your Account by writing preprinted convenience loan checks
that we supply to you. Your use of loan checks will be shown either
as a purchase, cash advance, or balance transfer on your monthly
statement. We may not honor your loan check if: your check is
post-dated; payment of the check would exceed your Credit Line;
a check is signed by person without authorized access; the amount
of the check is less than the minimum required amount; your Account has been terminated or suspended, or any drafts have been
reported lost or stolen. You may stop payment on a loan check if
you provide us with the exact information describing the check. If
you give us incorrect information, we will not be responsible for failing to stop payment. You understand there may be a charge for
each stop payment order requested. Our liability for a wrongful dishonor is limited to your actual charges; however, a dishonor for the
reasons stated above is not a wrongful dishonor. Only the person
whose name is printed on a convenience check may sign it. All
convenience checks must be written in U.S. dollars. We will not
certify a convenience check. You may write these checks for any
amount providing your total outstanding balance does not exceed
your available Credit Line and your credit card remains in good

standing. We are entitled to return it unpaid if there is not enough
available credit on your Account to pay it, if you are in default under
this Agreement, if your card or convenience checks have been reported lost or stolen, or if the convenience check is post-dated. A
convenience check may not be used to make a payment on your
credit card account or any other loan account you have with us.
The Credit Union shall have no liability for any convenience check
returned in excess of your Credit Line.
If we approve your application, this Agreement will constitute a revolving line of credit for an amount which will be the Credit Line under
your Account. We will advise you of the amount of your Credit Line.
That amount will be the maximum amount you may have outstanding
at any one time. You agree not to attempt to obtain more credit than
the amount of your Credit Line. However, if you temporarily exceed
your Credit Line, you agree to repay the excess immediately, even if
we have not yet billed you. Obtaining such credit does not increase
your Credit Line. We retain the right to increase or decrease your
Credit Line at any time. Any increase or reduction in the amount of
your Credit Line will be shown on your monthly statement or by separate notice together with any changes in the applicable Minimum
Monthly Payments. Your eligibility for this Credit Line is determined
by our loan policy and may be terminated at our sole discretion, without demand or notice. You may close your Credit Line at any time by
notifying us in writing and returning all Cards cut in half. If you terminate this Agreement or if we terminate or suspend your credit privileges, the provisions of this Agreement and your liability hereunder
shall otherwise remain in full force and effect until you have paid us
all sums due us under this Agreement and returned all Cards.
We will mail you a statement every month if your Account has a
balance. You agree that you will pay each month not less than the
minimum monthly payment on or before the closing date. The minimum monthly payment will be the larger of: (a) 2.0% of your out.
If your outstanding balance is less than $20, you agree to pay the
balance in full. In addition to the minimum monthly payment, you
shown on your statement each month by the due date shown on your
Statement. You may pay in full for all your purchases and cash advances each month, or you may repay in monthly installments. We
can accept late payments or partial payments, or checks, drafts, or
under this Agreement, which are hereby explicitly reserved. A credit
posting from a merchant or reversal of fees does not constitute a
minimum payment. The minimum monthly payment may be allosuch as promotional offers, before higher rate balances, such as
cash advances or purchases. Payments in excess of the minimum
monthly payment will be allocated first to higher rate balances, as
applicable. From time to time, we may allow you to skip your minimum monthly payment due. If you choose to skip that payment, Interest Charges will continue to accrue in accordance with this Agreement. Payments received at: PO Box 37035, Boone, IA 50037-0035
on or before 5:00 PM Central Time on any business day will be credited to your Account as of that date; payments received by mail at
that address after 5:00 PM Central Time or on a weekend will be
posted to your Account as of the next business day.
By signing your application, to secure your Account, you grant us a
purchase money security interest under the Uniform Commercial

© 2019 Farleigh Wada Witt. All Rights Reserved. This document may not be reproduced without written permission from Farleigh Wada Witt.

11-11-19

1

Code of the state in which you reside in any goods you purchase
through your Account. If you default, we will have the right to recover
any of these goods that have not been paid for through application
of your payments in the manner described in Section 4. In addition,
you grant us a security interest in all your shares and deposits, present and future, and all accounts (except Individual Retirement Accounts and Keogh Accounts) with the Credit Union to secure your
Account and agree, upon default, the Credit Union may apply all that
is secured to pay any amounts due under this Agreement, without
further notice to you. You further agree that collateral securing
other loans with the Credit Union (except loans secured by real
property) also secures this Account.
Each month, if you have an outstanding balance, we will send you a
statement showing new purchases, cash advances, payments, and
credits made to your Account during the billing period, your Previous
Balance, your "Total New Balance," any Interest Charge, and any
other charges. Your statement also will identify the remaining Credit
Line available and the Minimum Monthly Payment you must make
for that billing period and the date it is due. For statement verification
purposes, you agree to retain copies of transaction slips resulting
from each purchase, each advance, and other transaction on your
Account. Unless you notify us of a billing error as described below,
you accept your monthly statement as an accurate statement of your
Account with us.

Account, your Annual Percentage Rate may change each quarter
based on an index, which is the highest Prime Rate published in
The Wall Street Journal. The Annual Percentage Rate will change
on the first day of the statement cycle that begins in January, April,
July, and October, based on the index rate as of the 15 th day of the
previous month. To determine the Annual Percentage Rate, we
add a margin to the index. The amount of the margin for your
account is based on your credit profile and will be disclosed on the
Account Disclosure that accompanies, and is a part of, this
Agreement. The Annual Percentage Rate will never be more than
18.00%. Changes in the Annual Percentage Rate will affect the
number of payments you make.
b. Introductory or Promotional Rates. At our discretion, we may
offer you an introductory or promotional Annual Percentage Rate
for your Account. Any introductory or promotional Annual
Percentage Rate will be subject to the terms of the offer and this
Agreement. We will provide you with information on the offer,
including the time period the introductory or promotional Annual
Percentage Rate is in effect in the Account Disclosure or in other
materials that we send to you about the offer after you receive your
Credit Card.

The Credit Union figures the Interest Charge on your Account by
multiplying the "Average Daily Balance" of purchases, balance
transfers, and cash advances for your Account (including current
transactions) by the Monthly Periodic Rate. To get the "Average
Daily Balance" we take the beginning balance of your Account
each day, add any new purchases or cash advances, and subtract
any payments or credits, unpaid Interest Charge and unpaid late
charges. This gives us the daily balance. Then, we add up all the
daily balances for the billing period and divide the total by the number of days in the billing period. This gives us the "Average Daily
Balance
Percentage Rate in effect for the billing period by 12.

You agree to pay the following fees and charges on your Account.
All fees and charges will be added to your purchase balance and will
accrue interest charges at the same rate that applies to your purchase balance.
a. Late Fee. If your payment is not received by the due date, you
will pay a late fee as described in the Account Disclosures.
b. Returned Item Fee. If any check or draft we receive from you as
payment for any amount you owe to us is returned to us unpaid, you
agree to pay a returned item fee as described in the Account
Disclosures.
c. Cash Advance Fee. If you initiate a Cash Advance, you will pay
a fee as described in the Account Disclosures.
d. Balance Transfer Fee. If you transfer a balance from debt at
another financial institution to your Blue Federal Credit Union credit
card, we will charge you a Balance Transfer Fee.
e. ATM Fee. If you use an ATM to obtain a cash advance and the
ATM is not operated by us, you may be charged an ATM surcharge
by the ATM operator or an ATM network utilized for such a
transaction. The ATM surcharge may be charged to your Account if
you complete the transaction.
f. International Transaction Fee. You will be charged an
International Transaction Fee of up to 1.0% of the transaction
amount for any card transaction in which the merchant or other
party to the transaction is in a foreign country.
g. Card Replacement Fee. For each replacement card you request,
you will pay a fee as described in the Account Disclosures. If you
request special rush delivery, you will pay an additional fee as
described in the Account Disclosures.
h. Attorney's Fees and Costs. If you default on any part of this
Agreement, you agree to pay us all costs to collect your Account,
including court costs and reasonable attorney fees whether or not
there is a lawsuit, and fees on any appeal and fees for bankruptcy
proceedings, appeals, and any post-judgment collection services, if
applicable. These fees and costs may be added to your Account balance and will bear interest at the Annual Percentage Rate in effect
at that time.

a. Standard Rates. The Periodic Rate and corresponding Annual
Percentage Rate(s) used to compute the Interest Charge are set
forth in the Account Disclosure that accompanies, and is a part of,
this Agreement. The Annual Percentage Rate is divided by 12 to
obtain the Monthly Periodic Rate. If your Account is a Variable Rate

a. Use. Your Card and Account may be used only for valid and lawful
purposes. You may not use your Card (i) to make Purchases or
obtain Cash Advances for any illegal transaction, or (ii) for any
internet or online gambling transactions. If you use your Card for any
illegal or prohibited transaction, this Agreement also applies to such
transaction and you agree to pay any and all amounts related to such

The total outstanding balance of purchases, balance transfers, and
cash advances in the Account on the closing date of a billing period,
including any Interest Charge, will be shown on the Periodic
Statement for that billing period as the "New Balance."
a. Cash Advances and Balance Transfers. We begin charging an
Interest Charge on cash advances and balance transfers from the
date of each transaction. There is no time period within which to pay
to avoid a periodic Interest Charge on cash advances or balance
transfers.
b. Purchases. Your due date is at least 25 days after the close of
each billing period. An Interest Charge will be imposed on the portion of purchases included in the New Balance that is not paid by
the due date.
Interest
Charge on purchases for a billing period. However, if you do not
pay the New Balance for purchases within the grace period, your
Interest Charge will accrue on any unpaid purchase transactions
from the first day of the billing period in which the payment is due.

© 2019 Farleigh Wada Witt. All Rights Reserved. This document may not be reproduced without written permission from Farleigh Wada Witt.

11-11-19 2

transaction pursuant to the terms of this Agreement. We may, at our
sole discretion and without warning, restrict the use of or terminate
your Card if we notice excessive use of your Card or other suspicious
activities or if we reasonably believe the Card is or has been used
for one or more illegal or prohibited transactions.
b. Ownership of Cards. Any Card or other credit instrument or
device which we supply to you is our property and must be returned
to us, or to any person whom we authorize to act as our agent, or to
any person who is authorized to honor the Card, immediately
according to instructions. The Card may be repossessed at any time
in our sole discretion without demand or notice. You cannot transfer
your Card or Account to another person.
c. Honoring the Card. We may decline to honor any transaction for
any reason. Neither we nor merchants authorized to honor the Card
will be responsible for the failure or refusal to honor the Card or any
other credit instrument or device we supply to you. If a merchant
agrees to give you a refund or adjustment, you agree to accept a
credit to your Account in lieu of a cash refund.
d. Currency Conversion/International Transaction Fee.
Purchases and cash advances made in foreign countries will be
billed to you in U.S. dollars. The currency conversion rate for
international transactions is a rate selected by MasterCard from the
range of rates available in wholesale currency markets for the
applicable central processing date (which rate may vary from the rate
MasterCard itself receives), or the government-mandated rate in
effect for the applicable central processing date. In addition, you will
be charged an International Transaction Fee of 1% of the transaction
amount for any card transaction made in a foreign country.
e. Notices and Payments. All notices will be sent to your address
as shown in the application. You agree to advise us promptly in
writing if you change your mailing address. All payments should be
mailed to us at the remittance address shown on your monthly
statements. Payments received at that address will be credited to
your Account as of the date received. Written notices and inquiries
to us must be sent to:
Blue Federal Credit Union
P.O. Box 3200
Cheyenne, WY 82003-3200
f. Personal Identification Number. If we issue you a Personal Identification Number ("PIN") for use with your Card in accessing your
line of credit at ATMs, these numbers are issued to you for your security purposes. These numbers are confidential and should not be
disclosed to third parties. You are responsible for safekeeping your
PIN. You agree not to disclose or otherwise make available your PIN
to anyone not authorized to sign on your Account. To keep your Account secure, please do not write your PIN on your Card or keep it
in the same place as your Card.
Loan Protection coverage is not required for any extension of credit
under this Agreement. However, you may purchase any loan protection available through us and have the monthly fee added to your
outstanding balance as purchases. If you elect to do so, we will give
you the necessary disclosures and documents separately.
You will be in default under this Agreement if any of the following
occur: (a) Any Minimum Monthly Payment is not made when due;
(b) You become insolvent, bankrupt, or you die; (c) You violate any
part of this Agreement, or any other agreement with us; or (d) If we
reasonably deem ourselves insecure with respect to your Account.
Upon default, we may declare the entire unpaid balance immediately
due and payable, and you agree to pay that amount plus any attorney's fees and costs as set forth in Section 10 above, including fees
and costs in any appeal or bankruptcy proceeding. We can delay
enforcing any right under this Agreement without losing that right or
any other right. We will notify you in writing of any such action as
soon as practical if it occurs.

This Agreement will not take effect until it is approved by us. This
Agreement shall be governed by the laws of the state of Wyoming.
If any provision of this Agreement is held invalid, the remaining provisions that are severable shall remain in effect.
You agree to notify us immediately of the loss, or the theft, or the use
without your permission, of any Card or other credit instrument or
device which we supply to you. You may be liable for the unauthorized use of your card. You will not be liable for unauthorized use
which occurs after you notify: Blue Federal Credit Union, P.O. Box
3200, Cheyenne, WY 82003-3200, Telephone: (800) 368-9328,
orally or in writing of loss, theft, or possible unauthorized use. In any
case, your liability shall not exceed $50.
You authorize us to release information to others (e.g., credit bureaus, merchants, and other financial institutions) regarding the status and history of your Credit Line. You agree to provide us, at any
time we deem necessary, with a current financial statement and/or
updated credit information upon request. We may investigate your
credit directly or through a credit reporting agency.
We reserve the right to change any terms or conditions of this
Agreement at any time, to the extent permitted by applicable law.
We will notify you of the changes to this Agreement as required by
law.

Keep this document for future use. This notice tells you about your
rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement. If you think
there is an error on your statement, write to us at: Blue Federal
Credit Union, P.O. Box 3200, Cheyenne, WY 82003-3200. In your
letter, give us the following information:
Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do, we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter. When we receive
your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
We cannot try to collect the amount in question or report you
as delinquent on that amount.
The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.

© 2019 Farleigh Wada Witt. All Rights Reserved. This document may not be reproduced without written permission from Farleigh Wada Witt.

11-11-19 3

While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the
date payment is due. We may then report you as delinquent if
you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay.
If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been settled between us. If we do not follow all of the rules above, you do
not have to pay the first $50 of the amount you question even if
your bill is correct.
Your Rights If You Are Dissatisfied with Your Credit Card Purchases.
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase. To use this right, all
of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at the above address. While we
investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.

This notice applies to any borrower who is either: (i) a member of
the Armed Forces who is currently serving on active duty (under a
call or order not less than 30 days), Active Guard or Reserve duty
f the Covered Member.
Military Annual Percentage Rate. Federal law provides important
protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36%. This
rate must include, as applicable to the credit transaction or
account: the costs associated with credit insurance premiums;
fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain
application fees for a credit card account); and any participation fee
charged (other than certain participation fees for a credit card
account). The Credit Union may adjust interest or fees as
necessary in any month in order to ensure that the annual
percentage rate does not exceed 36%.
Payment Obligation. Your payment obligation under your Credit
Card Account is set forth in the Minimum Monthly Payment
provision (Section 4) of the Credit Card Agreement.
Security Interest.
Credit Union shares or deposits pursuant to the Credit Card
Agreement will not apply your Credit Card Account. A security
interest in shares or deposits granted in connection with any other
credit card account, loan or line of credit does not secure the Credit
Card Account identified above, in spite of any provision that
collateral securing one loan secures all of your other Credit Union
obligations. However, if you establish a deposit or share account
specifically in connection with your Credit Card Account, funds
deposited in that account after you establish the Credit Card
Account are subject to our security interest as set forth above in
the Credit Card Agreement.
Credit Union Toll-Free Telephone Number. Call (800) 368-9328
for verbal information about the Military Annual Percentage Rate
and your payment obligation.
You understand and agree to the terms and conditions in this Agreement and the Fair Credit Billing Notice. You acknowledge that you
have received a copy of this Agreement, the Account Disclosure, and
the Fair Credit Billing Notice. This Agreement is a final expression of
the agreement between you and the Credit Union.

© 2019 Farleigh Wada Witt. All Rights Reserved. This document may not be reproduced without written permission from Farleigh Wada Witt.

11-11-19 4

